No. 20-302
IN THE

Supreme Court of the United States
STEVEN DOTSON,
Petitioner,
v.
UNITED STATES,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
PETITION FOR REHEARING
Andrew P. Leiendecker
JONES DAY
90 S. Seventh Street
Suite 4950
Minneapolis, MN 55402

Donald L. R. Goodson
Counsel of Record
Rajeev Muttreja
JONES DAY
250 Vesey Street
New York, NY 10281
(212) 326-3419
dgoodson@jonesday.com
Shay Dvoretzky
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001

Counsel for Petitioner

1
PETITION FOR REHEARING
Pursuant to Rule 44.2, Petitioner Steven Dotson
respectfully suggests that there are “intervening
circumstances of a substantial . . . effect” that arose
subsequent to the filing of Petitioner’s petition for writ
of
certiorari,
and
that
these
intervening
circumstances militate in favor of granting rehearing
and holding this petition in abeyance pending
disposition of Tribue v. United States, No. 20-6054
(U.S.). As grounds for this petition for rehearing,
Petitioner states the following:
1. On October 13, 2020, the Court denied
Petitioner’s petition for writ of certiorari,1 which
presented the following merits question: “If a
defendant successfully challenges on collateral review
one or more of the predicate convictions that the
district court relied on to impose a sentence
enhancement under the Armed Career Criminal Act
(ACCA), may the Government substitute new
predicate convictions on collateral review that it did
not invoke at sentencing in order to maintain the
ACCA enhancement?” Pet. for Writ of Cert. at i,
Dotson v. United States, No. 20-302 (U.S. Sept. 4,
2020).
2. After Petitioner filed his petition for writ of
certiorari but before the Court denied it, Alex Tribue
also filed a petition for writ of certiorari seeking
review of the Eleventh Circuit’s decision in Tribue v.

1 In accordance with the Court’s Rules, this petition for
rehearing is filed within 25 days of denial of certiorari in
Petitioner’s case. See Sup. Ct. R. 30.1, 44.2.

2
United States, 929 F.3d 1326 (11th Cir. 2019). See
Pet. for Writ of Cert., Tribue, No. 20-6054.
3. Mr. Tribue’s petition presents a merits question
that is substantively identical to the merits question
raised by Petitioner: “Whether, on collateral review,
the government may maintain a sentencing
enhancement under the ACCA by substituting a
different conviction that it did not provide the
defendant with notice of at the original sentencing.”
Id. at i.
4. That the two petitions raised substantively
identical questions is unsurprising: The Seventh
Circuit’s decision in Dotson expressly discussed (and
disagreed with) the Eleventh Circuit’s decision in
Tribue, see Dotson v. United States, 949 F.3d 317, 321
(7th Cir. 2020); in turn, the dissent from the Eleventh
Circuit’s denial of rehearing en banc in Tribue noted
that Tribue conflicts with Dotson, see Tribue v. United
States, 958 F.3d 1148, 1151, 1155, 1157 (11th Cir.
2020). In other words, both cases are part of the same
circuit split.
5. The Court may have denied Petitioner’s
petition for writ of certiorari because of a preference
to address the same issue in a case like Tribue.
6. The Solicitor General waived a response in
Tribue on October 21, 2020, and the Court is
scheduled to consider Mr. Tribue’s petition at its
Conference on November 13, 2020.
7. If the Court calls for a response from the
Solicitor General, Petitioner respectfully requests
that it simultaneously hold Petitioner’s petition in
abeyance pending the disposition of Tribue. Cf.
Lindsey v. United States, 140 S. Ct. 2801 (2020)

3
(granting petition for writ of certiorari, vacating
judgment, and remanding case for further
consideration in light of Davis v. United States, 140
S. Ct. 1060 (2020)); Langston v. United States, 576
U.S. 1080 (2015) (granting petition for writ of
certiorari, vacating judgment, and remanding case for
further consideration in light of Johnson v. United
States, 576 U.S. 591 (2015)).
CONCLUSION
For the foregoing reasons, Petitioner respectfully
requests that the Court grant rehearing of its order
denying the petition for writ of certiorari, vacate that
order, and hold this case in abeyance pending
resolution of Tribue v. United States, No. 20-6054.
November 9, 2020

Respectfully submitted,

Andrew P. Leiendecker
JONES DAY
90 S. Seventh Street
Suite 4950
Minneapolis, MN 55402

Donald L. R. Goodson
Counsel of Record
Rajeev Muttreja
JONES DAY
250 Vesey Street
New York, NY 10281
(212) 326-3419
dgoodson@jonesday.com
Shay Dvoretzky
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001

Counsel for Petitioner

4
CERTIFICATE OF COUNSEL
Pursuant to Rule 44.2, I, Donald L. R. Goodson,
counsel for petitioner Steven Dotson, hereby certify
that the petition for rehearing is restricted to the
grounds specified in Rule 44.2. I further certify that
the petition for rehearing is presented in good faith
and not for delay.

November 9, 2020

_/s/ Donald L. R. Goodson
Donald L. R. Goodson

